          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




 Audit Report

The Use of Staff Augmentation
Subcontracts at National Nuclear
Security Administration's Mixed Oxide
Fuel Fabrication Facility



 DOE/IG-0887                            May 2013
                                  Department of Energy
                                    Washington, DC 20585
                                          May 15, 2013

MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Use of Staff Augmentation
                          Subcontracts at the National Nuclear Security Administration's Mixed
                          Oxide Fuel Fabrication Facility"

BACKGROUND

Shaw AREVA MOX Services, LLC (MOX Services) is responsible for the design and
construction of the National Nuclear Security Administration's (NNSA) nearly $5 billion Mixed
Oxide Fuel Fabrication Facility (MOX Project) at the Savannah River Site near Aiken, South
Carolina. The facility will remove impurities from surplus weapons-grade plutonium and mix it
with depleted uranium oxide to form fuel pellets for commercial nuclear power reactors. Design
for the facility began in March 1999, construction activities began in August 2007, and
operations are planned to commence in 2016.

MOX Services used staff augmentation subcontracts to fill professional, technical and
administrative support service positions on an as-needed basis on the MOX Project. According
to MOX Services officials, a shortage of qualified personnel in the local area necessitated the use
of "temporary" subcontract employees.

The Office of Inspector General received a complaint alleging a variety of problems involving
temporary living expenses, overtime hours, as well as the appropriateness of staff augmentation
labor rates. To address the allegations, we initiated an audit to determine whether the use of staff
augmentation subcontracts on the MOX Project had been managed effectively and economically.

RESULTS OF AUDIT

The audit disclosed that MOX Services had not effectively managed the temporary living
expense component of its staff augmentation effort. We substantiated the allegation that MOX
Services billed and NNSA reimbursed payments to subcontractors for excessive temporary living
expenses. Specifically, we concluded that, since January 2007, MOX Services was reimbursed
about $3.7 million for inappropriate temporary living expenses for staff augmentation
employment. In particular, MOX Services claimed and NNSA reimbursed:

    • More than $2.3 million in excessive temporary living expenses. Prior to July 2008, MOX
      Services' policy had been to limit the cost of temporary living expenses for subcontract
      employees to the estimated cost of relocation. MOX Services eliminated the cost ceiling
      in July 2008, when employees' temporary living expenses started exceeding the
      relocation estimate. Elimination of the ceiling for subcontract employees was not
                                                2


       consistent with MOX Services' policy for its partner firms, teaming partner
       subcontractors, and other first tier subcontractors assigned to the MOX Project that
       limited temporary living expenses to 2 years.

    • An additional $1.4 million for subcontractor employees who had not met established
      requirements for receiving temporary living expenses. In particular, we found
      subcontractor employees who had not demonstrated dual residences, had residences
      within 50 miles of the jobsite prior to starting their assignments, and had not obtained
      prior approval of their eligibility for such reimbursements as required.

As noted previously, these excessive and unnecessary costs occurred, at least in part, because in
July 2008, MOX Services eliminated the portion of its policy that limited the cost and duration
of staff augmentation subcontract employee temporary living expenses. Further, MOX Services
had not fully and consistently implemented other portions of its established policies and
procedures for managing temporary living expenses for staff augmentation subcontractors. This
was compounded by the fact that NNSA had not effectively monitored MOX Services'
management of the staff augmentation subcontracts.

As a result, NNSA unnecessarily paid as much as $3.7 million to MOX Services for staff
augmentation subcontractor temporary living expenses that could have been devoted to other
critical mission areas or, returned to the taxpayers. While we recognize the advantages and
flexibility provided by the use of staff augmentation subcontractors, obtaining technical and
professional services in this manner is inherently costly. As such, proper control must be
exercised to ensure that such expenses are limited to only those necessary and allowable under
existing policies and procedures.

In May 2012, recognizing the need for a consistent policy for extended assignments, the
Department of Energy issued a memorandum that limited contractor domestic personnel
extended assignments. On October 18, 2012, the Department issued Acquisition Letter 2013-01
that provided guidance on implementing the Department's policy governing reimbursement of
costs associated with contractor domestic extended personnel assignments. At the time of our
audit, the Department was still clarifying the interpretation of the scope of the policy's
applicability; and, the policy had not been fully implemented. Given the policy modifications
that are already in place, we have limited our recommendations in this area to addressing
recovery of costs and those necessary to strengthen control over the use of staff augmentation
subcontracts.

We did not substantiate the allegations concerning the pricing and payment of regular and
overtime hours for staff augmentation subcontracts from Fiscal Years 2007 through 2011. In
addition, due to record keeping issues, we could not specifically examine the allegations
concerning the pricing and payment of regular and overtime hours for staff augmentation
subcontracts in effect prior to 2007. As such, we have referred the overtime charge allegations to
Department officials for resolution.

MANAGEMENT REACTION

NNSA management concurred with the report's recommendations and identified actions it had
taken or planned to address those recommendations and to improve management of the
                                              3


temporary living expense component of staff augmentation subcontracts at the MOX Project.
Management's comments are included in their entirety in Appendix 2.

Attachment

cc:   Deputy Secretary
      Acting Administrator, National Nuclear Security Administration
      Acting Chief of Staff
REPORT ON USE OF STAFF AUGMENTATION SUBCONTRACTS AT
THE NATIONAL NUCLEAR SECURITY ADMINISTRATION'S MIXED
OXIDE FUEL FABRICATION FACILITY


TABLE OF
CONTENTS


Staff Augmentation Expenses

Details of Finding                                     1

Recommendations                                        5

Management Response and Auditor Comments               6


Appendices

1. Objective, Scope and Methodology                    7

2. Management Comments                                 9
THE USE OF STAFF AUGMENTATION SUBCONTRACTS AT THE
NATIONAL NUCLEAR SECURITY ADMINISTRATION'S MIXED OXIDE
FUEL FABRICATION FACILITY

Staff Augmentation Expenses

In June 2011, the Office of Inspector General received a complaint alleging a variety of problems
involving the appropriateness of staff augmentation labor rates, as well as overtime and
temporary living expenses for the Mixed Oxide Fuel Fabrication Facility (MOX Project). It was
alleged that some subcontractors priced services fully burdened with labor, indirect costs and
profit, while others priced the components separately, resulting in inconsistent billing and
overpayment. The allegation also asserted that none of the agreements had overtime rates, which
in turn, resulted in Shaw AREVA MOX Services, LLC (MOX Services) billing, and the
Department of Energy (Department) reimbursing, overcharges for substantial amounts of
overtime that could be recovered, if audited. The method of calculation and amount of
"temporary" living expense payments to staff augmentation subcontractors was also highlighted
in the allegation as an area to be reviewed for consistency and allowability.

We substantiated the allegation that MOX Services billed and the National Nuclear Security
Administration (NNSA) reimbursed payments to subcontractors for excessive temporary living
expenses. Our examination of staff augmentation employment since January 2007 revealed that
MOX Services had not effectively managed the temporary living expense component of its staff
augmentation effort. Over the course of 5 years, these problems may have resulted in
unnecessary payments of approximately $3.7 million for subcontractor employee temporary
living expenses that appeared to be excessive and inconsistent with MOX Services' policies
designed to limit either the duration or amount of temporary living expenses.

We did not substantiate the allegations concerning the pricing and payment of regular and
overtime hours for staff augmentation subcontracts in effect during Fiscal Years (FYs) 2007
through 2011. In addition, due to record keeping issues, we were unable to specifically examine
the allegations concerning the Department's management of pricing and payment of regular and
overtime hours for staff augmentation subcontracts in effect prior to 2007. As such, we referred
the allegations involving these charges to Department officials for resolution.

                                   Temporary Living Expenses

We substantiated the allegation that MOX Services billed and NNSA reimbursed payments to
subcontractors for excessive temporary living expenses. For example, MOX Services
reimbursed subcontractors for temporary living expenses well beyond the 12-month limit for the
Long Term Temporary Assignment (LTTA) program. MOX Services' policy, established in
November 2006, defined LTTA as "temporary" travel that was estimated to be more than 60
days at the outset, but less than 12 months in duration. Initially, MOX Services established a
cost ceiling for temporary living expenses that was limited to the cost to relocate the employee to
and away from the work site. However, when employees' temporary living expenses started
exceeding the relocation estimate, MOX Services eliminated the cost ceiling in July 2008.
Further, MOX Services' policy stated that the Department would not be billed for temporary



Page 1                                                                        Details of Finding
living expenses in excess of the relocation estimate without the prior approval of the NNSA
Contracting Officer. However, MOX Services continued to bill the Department for temporary
living expenses after exceeding the cost ceiling without obtaining the required approvals.

In the absence of a defined MOX Services cost ceiling requirement for subcontractor employees
after July 2008, we benchmarked the reasonableness of temporary living expenses paid to staff
augmentation subcontractors against the MOX Services' policy governing such costs for its
partner firms, the teaming partner subcontractors, and other first tier subcontractors (collectively
referred to as corporate employees). Specifically, MOX Services established a policy in October
2008, that limited temporary living expenses to 2 years for its corporate employees assigned to
the MOX Project. Per the MOX Services policy, all exceptions to the duration limit for
corporate employees required approval from the MOX Project Manager or the NNSA
Contracting Officer. The policy governing temporary living expenses for corporate employees
specifically excluded staff augmentation subcontractor employees. MOX Services believed that
if the temporary living expense payments were stopped after 2 years, staff augmentation
subcontractor employees would leave the project resulting in greater overall costs to the project
associated with training replacement employees.

Using MOX Services' policy for corporate employees as a benchmark, we identified 43 staff
augmentation subcontractors at the time of our audit that exceeded the 2-year duration for
temporary living expenses, some by more than 2.5 years. In fact, we determined that collectively
these subcontractors could have been paid more than $2.31 million for temporary living expenses
after passing the 2-year limit applied to corporate employees.

We also identified an additional $1.4 million in unnecessary temporary living expenses paid to
staff augmentation subcontractor employees. MOX Services' policy required staff augmentation
employees to demonstrate that dual living expenses were being incurred as a direct result of the
temporary assignment, and that the duty location was more than 50 miles from the employee's
permanent residence of record. Per policy, MOX Services authorized all initial LTTAs and
employees were required to recertify their eligibility every 180 days thereafter to remain eligible.
LTTA subcontractor employees were entitled to receive 100 percent of established Government
business travel rates for up to 60 days and then 70 percent thereafter, and one trip home per
month by commercial air.

To test compliance with these established procedures, we reviewed a judgmental sample of
103 of 231 staff augmentation subcontractor employees who had received temporary living
expenses reimbursements since 2007. We found that 29 of 103 employees, about 28 percent,
may have been reimbursed for unnecessary temporary living expenses. We identified
40 instances in which these 29 employees and/or MOX Services failed to follow MOX Services'
existing policies and procedures. Specifically:


1
 At the time of our audit, we estimated that employees received reimbursements of nearly $2.8 million for periods
exceeding 2 years. Some of these employees also received temporary living expenses although they did not meet
MOX Services requirements governing dual residences, residences within 50 miles of the MOX Project, prior
approval, etc. In order to prevent overlap, we eliminated the costs associated with employees with durations
exceeding 2 years when their reimbursements were captured in our questioned employees' costs that had not
complied with established requirements.

Page 2                                                                                     Details of Finding
    •    We found 22 instances of payments for temporary living expenses to employees that did
         not demonstrate dual residency. Employees receiving temporary living expenses were
         required to provide documentation (rental agreement or property tax statement) proving
         that the employee had a primary residence location over 50 miles from the jobsite and
         proving residency (lease/rental agreement, cancelled rent checks or lodging receipts) at
         or near the MOX Project.

   •     Three employees were paid temporary living expenses even though they had established
         residences within 50 miles of the jobsite prior to starting the assignment. To be eligible,
         the employee must be in a situation in which dual living expenses are being incurred as a
         direct result of the temporary assignment.

    •    Seven employees subject to a cost ceiling in effect prior to July 2008, were reimbursed
         for temporary living expenses in excess of the estimate to relocate the employee into and
         away from the jobsite. A cost benefit analysis was required to compare the cost of
         relocating the employee into and away from the new duty location to the cost of keeping
         the employee on temporary assignment. Although MOX Services performed a cost
         benefit analyses for most subcontractors, we found that MOX Services paid employees'
         temporary living expenses beyond the estimated cost of relocation.

    •    In five instances, employees were paid temporary living expenses even though they had
         not received pre-approval of eligibility. Subcontractor employees proposed to receive
         temporary living expenses must have been approved in advance to enter into the
         program by submitting documentation for review and approval by MOX Services.

    •    In three instances, employees received payments for more than the estimated cost of one
         trip home per month by commercial air. Employees were authorized to be reimbursed
         for multiple trips home via privately-owned vehicles during the month, as long as the
         cumulative monthly mileage costs did not exceed the estimated cost comparison of one
         round trip by commercial air, including associated allowable expenses for airport
         parking, taxis, etc. The policy was subsequently changed in July 2008, to restrict
         employees to only one trip home per month, regardless of the mode of transportation.

                                       Pricing and Overtime

As previously noted, we did not substantiate allegations regarding staff augmentation subcontract
pricing and overtime for subcontractors employed from FYs 2007 to 2011. Specifically, we
reviewed the 7 Basic Ordering Agreements awarded in November 2006, the 4 subsequently
awarded in 2011, and a judgmental sample of transactions for 103 of 231 staff augmentation
subcontractors. We found the labor rates, including overtime, to be competitively awarded and
consistently priced in accordance with the terms of the Basic Ordering Agreements.

Although the allegation stated that there were approximately 40 staff augmentation subcontracts
employing 100 to 150 personnel prior to 2007, we were unable to specifically examine the
allegation of inconsistent staff augmentation pricing for these subcontracts. At the time of our
review, supporting documentation for these transactions consisted of hard-copy records that were
stored in a manner not conducive to review. MOX Services was in the process of scanning these

Page 3                                                                         Details of Finding
documents and automating related accounting records. As such, we referred the allegations
involving these charges to Department officials for resolution.

Policies and Procedures

MOX Services paid excessive temporary living expenses to staff augmentation subcontractors
because it had not fully and consistently implemented its policies and procedures for managing
temporary living expenses. In some cases, additional policies and procedures were needed to
establish limits on the cost and duration of staff augmentation subcontracts. Further, we found
that NNSA did not effectively monitor MOX Services' management of the staff augmentation
subcontracts.

In the majority of instances, unnecessary temporary living expenses were reimbursed because
MOX Services failed to implement established policies and procedures and verify the receipt and
adequacy of required documentation. For example, MOX Services did not consistently verify
that staff augmentation subcontractors were initially eligible for the LTTA program or that
continued participation was justified although required by policy. Also, MOX Services does not
have a policy or procedure limiting the total amount staff augmentation subcontractors can be
reimbursed for temporary living expenses, or the length of time they can receive those expenses.

NNSA monitoring of MOX Services' temporary living expenses policy for staff augmentation
subcontractors was not adequate to identify and prevent unreasonable costs. In 2007, NNSA's
Contracting Officer at the Savannah River Site was concerned with MOX Services' LTTA policy
and launched an informal review of the program. In general, the review found that employees
were self-certifying dual residency without supporting documentation, some employees were
receiving LTTA who had residences within 50 miles of the jobsite, and there was a general lack
of supporting documentation for reimbursed costs. Although the NNSA Contracting Officer
initiated monitoring of the program to address these concerns, the monitoring was suspended in
August 2008, when the Contracting Officer concluded that sufficient documentation was being
obtained for program expenses. At the time of our audit, no additional monitoring of MOX
Services' temporary living expenses policy implementation for staff augmentation subcontractors
had occurred to ensure that costs were adequately supported.

Additionally, the current NNSA Contracting Officer told us that he was unaware that the MOX
Services policy limiting temporary living expenses for corporate employees specifically
excluded subcontractor staff augmentation employees. While the Contracting Officer did not
know the rationale for the exclusion, he expressed the opinion that the 2-year limit that MOX
Services currently applies to its corporate employees should have been applied to staff
augmentation subcontractor employees as well.

The Department recognized the need for a consistent policy for extended assignments by issuing
a memorandum in May 2012, which limited contractor domestic personnel extended
assignments. Subsequently, on October 18, 2012, the Department issued Acquisition Letter
2013-01 that provided guidance to implement the Department's policy governing reimbursement
of costs associated with contractor domestic extended personnel assignments. Contracting
Officers were instructed to review on-going assignments to determine whether they were in



Page 4                                                                       Details of Finding
compliance with the policy and, as necessary, take steps to bring them into compliance. At the
time of our audit, the Department was still clarifying the interpretation of the scope of
applicability and the policy had not been fully implemented.

Increased Subcontractor Costs

We found that the Department may be paying more than necessary for staff augmentation
subcontractor services. Specifically, we questioned $3.7 million in temporary living expense
payments to staff augmentation subcontractor employees since 2007 that could have been
devoted to other critical mission areas. Without effective controls and adherence to existing
policies, additional unnecessary costs may be incurred.

We also noted that the absence of policy or procedures limiting the total amount staff
augmentation subcontractors can be reimbursed for temporary living expenses, or the length of
time they can receive those expenses, may have inadvertently created a disincentive to transition
these employees to permanent status. MOX Services had informed subcontract employees that it
preferred to convert those that performed in a suitable manner to permanent employment on the
project. However, staff augmentation subcontractors receive considerably more in temporary
living expense payments as compared to a direct hire employee. Consequently, MOX Services
officials told us that it had little success in converting such employees in 2008 and 2010.
Converting staff augmentation subcontractors to permanent employees would meet MOX
Services goals and likely reduce its overall labor costs.

RECOMMENDATIONS

While we recognize the advantages and flexibility provided by the use of staff augmentation
subcontractors, obtaining technical and professional services in this manner is inherently more
costly. As such, proper control must be exercised to ensure that the payment of temporary living
expenses are limited to only those necessary and allowable under existing policies and
procedures. Accordingly, we recommend that the NNSA Contracting Officer at the Savannah
River Site:

    1. Ensure MOX Services complies with Department policy on the length of time permitted
       and/or the dollar amount allowable for reimbursement of temporary living expenses for
       staff augmentation subcontractors;

    2. Determine the allowability of the temporary living expenses questioned in this report;

    3. Identify and recover any additional unallowable costs paid to staff augmentation
       subcontractor employees; and

    4. Review pricing and payment of regular and overtime hours for staff augmentation
       subcontracts in effect prior to 2007 when the scanned documents become available to
       determine if charges for this period were appropriate.




Page 5                                                                     Recommendations
MANAGEMENT RESPONSE AND AUDITOR COMMENTS

NNSA management agreed with the report's recommendations and stated that it had already
begun to take actions to address the findings identified in the report. Regarding
Recommendation 1, management stated that the NNSA Contracting Officer is evaluating a
directed policy change to the MOX Services contract establishing the maximum time allowed for
temporary staff augmentation status and the amount of per diem reimbursement. Regarding
Recommendations 2 and 3, the NNSA Contracting Officer is currently performing a review of
the MOX Services temporary staff augmentee files for the MOX project from 2007 to 2012, to
determine the appropriate disposition of questioned costs to include possible disallowance.
Regarding Recommendation 4, the NNSA Contracting Officer has requested that the Defense
Contract Audit Agency include a review of pricing and payment of regular and overtime hours
for the staff augmentation subcontracts under the MOX Services contract in the 2004, and
forward incurred cost audits.

We consider Management's comments and planned corrective actions responsive to our
recommendations. Management's comments are included in Appendix 2.




Page 6                                   Management Response and Auditor Comments
Appendix 1

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department)
had effectively and efficiently managed the use of staff augmentation subcontracts at the Mixed
Oxide Fuel Fabrication Facility (MOX Project).

SCOPE

We conducted this audit from August 2011 through November 2012, at the MOX Project at the
Savannah River Site, located near Aiken, South Carolina. The audit scope included the staff
augmentation subcontractor program from January 2007 through January 2012.

METHODOLOGY

To accomplish the audit objective, we:

    •    Reviewed Department and Federal regulations, contract requirements and performance
         measures relating to the staff augmentation subcontractor program.

   •    Selected a judgmental sample of 103 of 231 staff augmentation subcontractor employees
         that had received reimbursements for temporary living expenses between January 2007
         and August 2011. The sample consisted of randomly selected and high risk individuals
         identified during the course of the audit. The purpose of the sample was to review
         supporting documentation and accounting data for compliance with Shaw AREVA
         MOX Services, LLC policies and procedures. Because a judgmental sampling approach
         was chosen, the results cannot be projected to the population.

    •    Evaluated internal controls related to the approval and payment for temporary living
         expenses associated with managing the staff augmentation subcontractor program.

    •    Reviewed prior audits and reviews relating to the MOX Project and payment for
         temporary living expenses.

    •    Held discussions with key National Nuclear Security Administration (NNSA) and
         contractor officials responsible for the staff augmentation subcontractor program.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective. The audit included tests of controls
and compliance with laws and regulations necessary to satisfy the audit objective. We also
assessed compliance with the GPRA Modernization Act of 2010. We examined performance



Page 7                                                    Objective, Scope and Methodology
Appendix 1 (continued)

metrics related to the MOX Project and found that NNSA had established related performance
measures as part of its Annual Performance Plan. Because our review was limited, it would not
have necessarily disclosed all internal control deficiencies that may have existed at the time of
our audit. Based on our comparison of computer-processed data to supporting documentation,
we determined that the data were sufficiently reliable to achieve our objective.

Management waived an exit conference.




Page 8                                                    Objective, Scope and Methodology
Appendix 2

             MANAGEMENT COMMENTS




Page 9                             Management Comments
Appendix 2 (continued)




Page 10                  Management Comments
Appendix 2 (continued)




Page 11                  Management Comments
                                                                    IG Report No. DOE/IG-0887



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
